                       U.S. Department of Agriculture

                          Office of Inspector General
                                      Midwest Region




           Audit Report

  Food Safety and Inspection Service
Use of Food Safety Information Systems




                           Report No. 24601-0003-Ch
                                  SEPTEMBER 2004
                          UNITED STATES DEPARTMENT OF AGRICULTURE

                                     OFFICE OF INSPECTOR GENERAL

                                         Washington, D.C. 20250




DATE:          September 30, 2004

REPLY TO
ATTN OF:       24601-0003-Ch

SUBJECT:       Food Safety and Inspection Service - Use of Food Safety Information Systems

TO:            Dr. Barbara J. Masters
               Acting Administrator
               Food Safety and Inspection Service

ATTN:          Ronald F. Hicks
               Assistant Administrator
               Office of Program Evaluation, Enforcement, and Review


This report presents the results of our audit of the Food Safety and Inspection Service’s Use of Food
Safety Information Systems. The response to the official draft report is included in its entirety as
exhibit A, with excerpts and the Office of Inspector General’s position incorporated into the Findings
and Recommendations section of the report.

Based on the response, we have reached management decisions on Recommendations Nos. 6 and 10.
Please follow your agency’s internal procedures in forwarding documentation for final action to the
Office of the Chief Financial Officer.       We have not reached management decisions on
Recommendations Nos. 1, 2, 3, 4, 5, 7, 8, and 9. Management decisions on these recommendations
can be reached once you have provided us with the additional information outlined in the report
sections OIG Position following each recommendation.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days describing
the corrective actions taken or planned and the timeframes for implementation of those
recommendations for which management decisions have not yet been reached. Please note that the
regulation requires that management decisions be reached on all recommendations within a maximum
of 6 months from report issuance.



//s//
ROBERT W. YOUNG
Assistant Inspector General
    for Audit

Attachment
Executive Summary
Use of FSIS Food Safety Systems

Results in Brief     Information systems are critical to the Food Safety and Inspection Service’s
                     (FSIS) oversight of meat and poultry establishments. These systems house a
                     vast amount of food safety data, which FSIS uses to monitor establishments’
                     compliance with Federal health and safety regulations. The systems alone,
                     however, cannot ensure that FSIS will detect serious problems that could lead
                     to product recalls. Our review disclosed that FSIS has not developed an
                     effective management control process for making sure that it uses its
                     information systems and the important data they store to the fullest extent.

                     Following the massive ConAgra recall in 2002, OIG pointed out FSIS’ need
                     to establish an effective management control process for handling food safety
                     data. FSIS responded that inspectors have real-time access to all available
                     inspection data generated for their respective establishments. However, we
                     identified the need for more effective coordination and information sharing
                     between FSIS Headquarters, the agency’s Technical Service Center (TSC),
                     and the district offices. At the time of our fieldwork at the districts,
                     Headquarters had not issued instructions to the TSC regarding its
                     responsibility to distribute important monthly exception reports to the
                     districts. Furthermore, Headquarters had not communicated with the TSC
                     regarding how it could improve the reports. Thus, even after the ConAgra
                     recall, the absence of an effective management control process inhibited the
                     flow of food safety information and feedback.

                     In addition, FSIS has provided little in the way of hands-on training or
                     written procedures on how to analyze food safety data to those responsible
                     for using that data to recognize trends and take action that could prevent a
                     recall. At the district level, FSIS has not adequately instructed personnel to
                     use the extensive information available through the Performance-Based
                     Inspection System (PBIS), the agency’s inspection scheduling and result
                     reporting system. We determined that inspection personnel relied on their
                     own judgment to interpret and act on compliance data presented in the PBIS
                     standard reports, meaning that inspectors’ opinions of what is acceptable and
                     unacceptable at FSIS-inspected establishments may differ. In addition, many
                     front-line supervisors and district officials we interviewed did not know how
                     to operate ProClarity, a data-mining software tool for creating specialized
                     reports with PBIS data. Although FSIS has made the Corporate Sybase
                     database and the accompanying software available to inspection personnel, it
                     needs to make a greater effort to ensure they use those resources consistently
                     and effectively.


USDA/OIG-A/24601-0003-Ch                                                                    Page i
                     Also of concern, FSIS has not provided a comprehensive plan for the Office
                     of Program Evaluation, Enforcement, and Review’s (OPEER) to monitor the
                     agency’s development of a management control process as was stated in
                     response to earlier audit reports. For 2004, FSIS has directed OPEER to
                     review the agency’s In-Plant Performance System (IPPS), a personnel
                     management tool for front-line supervisors and the inspectors they oversee.
                     By not including Headquarters, the district offices, and the TSC in its
                     reviews, OPEER cannot obtain a comprehensive picture of the agency’s
                     progress in developing a management control process or making effective use
                     of its food safety data. Furthermore, FSIS has not developed any written
                     plans or procedures detailing how OPEER will accomplish this assignment.

                     We also found several ways in which FSIS could improve the information
                     systems themselves. For example, FSIS’ District Early Warning System
                     (DEWS) often failed to issue “early warnings” before product recalls and did
                     not issue followup alerts if a problem identified by the system was not
                     resolved promptly. Since FSIS implemented DEWS in April 2002, the
                     agency had not reviewed or modified the system. Although DEWS generated
                     numerous alerts that may have prevented serious health and safety problems
                     at inspected establishments, the 11 product recalls that were not preceded by
                     DEWS alerts between April 2002 and October 2003 indicate the need to
                     review the system’s effectiveness. At the exit conference, FSIS officials
                     informed us that the DEWS system had been taken out of service because the
                     information it provided was available through PBIS and PREP, and could be
                     accessed directly through other means.           However, the officials we
                     interviewed concurred with our observation that, unlike DEWS, the measures
                     currently in place do not provide automatic warnings of potential problems,
                     but rather require system users to perform their own reviews.

                     FSIS’ principal system, PBIS, also needs additional controls for tracking
                     serious noncompliance records (NRs), such as fecal material on carcasses.
                     None of the PBIS reports specifically categorizes fecal material NRs, which
                     are associated with E. coli O157:H7 contamination, allowing inspectors to
                     easily pinpoint them. Because of the lack of this capability, PBIS is not as
                     effective as it could be in identifying serious noncompliance trends at
                     inspected establishments. Also, due to a limited data exchange with PBIS,
                     the agency’s Pathogen Reduction Enforcement Program (PREP) does not
                     increase E. coli O157:H7 testing when inspectors report problems with fecal
                     material contamination at meat and poultry establishments. Until PREP is
                     able to draw noncompliance information directly from the main PBIS
                     database, this problem could increase the risk of products contaminated with
                     dangerous pathogens entering commerce.



USDA/OIG-A/24601-0003-Ch                                                                  Page ii
                     Finally, to preserve the continuity of its IT operations, FSIS needs to develop
                     all required system documentation, such as data dictionaries and system
                     flowcharts, to support PBIS and the agency’s other systems. Without such
                     documentation, some employees may not be able to perform risk assessments
                     and other analyses to evaluate the systems’ effectiveness, and new employees
                     may come to an incomplete or incorrect understanding of the systems’
                     operations.

Recommendations
In Brief             To establish an effective management control process for accumulating and
                     analyzing food safety data, we recommend that FSIS:

                     •     Develop a comprehensive management control process that defines the
                           responsibilities of each management and operating level and provides
                           guidelines for regular communication and coordination.

                     •     Provide guidelines and hands-on training to FSIS inspectors and
                           supervisors to use in analyzing data available through PBIS and other
                           systems.

                     Additionally, to improve the effectiveness of its information systems
                     (particularly their ability to identify problems that could lead to product
                     recalls), FSIS should:

                     •     Periodically review the effectiveness of FSIS’ early-warning system, and
                           implement a system to track the status of unresolved system alerts;
                     •     Code noncompliances in PBIS by type so that inspectors and supervisors
                           can more readily identify the most hazardous NRs, such as fecal material
                           contamination;
                     •     Establish data exchange between PBIS and PREP to allow PREP to
                           increase sampling based on fecal material noncompliances; and
                     •     Develop all required system documentation, particularly data dictionaries
                           and system flowcharts.

Agency Response
                     In their response to the official draft report dated September 30, 2004, FSIS
                     officials stated that they are in the process of updating FSIS’ management
                     control program. They also described several other actions they are taking to
                     increase their oversight of inspectors’ activities, such as creating District
                     Analyst and Case Management Specialist positions.

                     Regarding the use of key information systems, FSIS officials stated that each
                     system was developed and implemented with a specific purpose in mind and,
                     as such, they believed that OIG reviews should evaluate them on that basis
USDA/OIG-A/24601-0003-Ch                                                                    Page iii
                     rather than on what additional functions the systems should be
                     accomplishing. They also stated that their systems were not designed to
                     predict product recalls; however, agency officials stated that they are
                     establishing an analytical capacity within the recall management function to
                     review and analyze product recall cases. Their response is provided in its
                     entirety as exhibit A of the report.

OIG Position:
                     Section 1 of this report describes our issues with FSIS’ management control
                     process. We concur with FSIS officials regarding the need to update their
                     management control program, and we will continue working with them as we
                     have over the past several months to ensure that controls over inspection
                     activities are strengthened.

                     Section 2 of the report describes our review of the guidance and training
                     provided to FSIS inspectors and front-line supervisors. We believe that
                     creating District Analyst positions within each district will provide additional
                     support to field managers and supervisors in their oversight of inspection
                     activities. However, we do not agree that this eliminates the need for
                     additional written guidelines, to assist managers and supervisors in
                     determining whether information appearing in PBIS and other reports could
                     be indicative of serious problems. We believe that such guidelines are
                     needed to assist managers and supervisors in performing critical reviews of
                     inspection activities using the information systems.

                     Section 3 of the report describes the results of our review of FSIS’ own use of
                     key information systems to oversee inspection activities. We cannot agree
                     with FSIS officials’ position that we should evaluate the systems only in
                     terms of the functions they were originally designed to perform, particularly
                     where opportunities clearly exist for the systems to provide needed support to
                     the agency in its oversight of meat and poultry establishments.




USDA/OIG-A/24601-0003-Ch                                                                    Page iv
Abbreviations Used in This Report




DEWS              District Early Warning System
FSIS              Food Safety and Inspection Service
GAO               Government Accountability Office
HACCP             Hazard Analysis and Critical Control Point
IPPS              In-Plant Performance System
IT                Information Technology
LEARN             Laboratory Electronic Application for Results Notification
NOIE              Notice of Intent to Enforcement
NOS               Notice of Suspension
NR                Noncompliance Record
OIG               Office of Inspector General
OPEER             Office of Program Evaluation, Enforcement and Review
PAIT              Program Analysis and Information Technology
PBIS              Performance Based Inspection System
PREP              Pathogen Reduction Enforcement Program
TSC               Technical Service Center
USDA              United States Department of Agriculture




USDA/OIG-A/24601-0003-Ch                                                       Page v
Table of Contents
Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ....................................................................................................... v

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

    Section 1. Management Control Process......................................................................................... 3

        Finding 1             FSIS Needs To Establish A Management Control Process For Effective
                              Coordination Between Headquarters And Field Units............................................ 3
                                  Recommendation No. 1.................................................................................... 7
                                  Recommendation No. 2.................................................................................... 8

    Section 2. Guidance and Training ................................................................................................. 10

        Finding 2             FSIS Needs To Improve Guidance and Training of Field Personnel.................... 10
                                  Recommendation No. 3.................................................................................. 13
                                  Recommendation No. 4.................................................................................. 13

    Section 3. IT Systems ...................................................................................................................... 15

        Finding 3             DEWS Needs To Be Strengthened........................................................................ 15
                                  Recommendation No. 5.................................................................................. 18
                                  Recommendation No. 6.................................................................................. 19
        Finding 4             PBIS Needs Additional Controls for Tracking High-Risk Noncompliance
                              Reports and Inspection Tasks................................................................................ 20
                                  Recommendation No. 7.................................................................................. 21
                                  Recommendation No. 8.................................................................................. 22
        Finding 5             PREP May Not Be Scheduling E. coli O157:H7 Testing As Often As
                              Necessary .............................................................................................................. 23
                                  Recommendation No. 9.................................................................................. 23
        Finding 6             FSIS Has Not Developed Required System Documentation ................................ 25
                                  Recommendation No. 10................................................................................ 27

Scope and Methodology........................................................................................................................ 28

Exhibit A – FSIS RESPONSE TO THE DRAFT REPORT............................................................. 29



USDA/OIG-A/24601-0003-Ch                                                                                                                     Page vi
Background and Objectives
 Background                 The Secretary of Agriculture established FSIS to ensure that the Nation’s
                            commercial supply of meat, poultry, and egg products is safe, wholesome,
                            and correctly labeled and packaged. Over 7,600 full-time FSIS inspectors
                            monitor the slaughter and processing of meat and poultry products at
                            approximately 6,500 establishments nationwide.

                            Implemented in 1989, PBIS provides FSIS personnel a risk-based method of
                            scheduling and reporting on inspection tasks at meat and poultry
                            establishments. After inspectors enter results of each onsite inspection into
                            the system, PBIS generates establishment performance reports that FSIS can
                            use to evaluate the establishment’s sanitation level and other factors. FSIS’
                            adoption of the landmark Hazard Analysis and Critical Control Point
                            (HACCP) system on July 25, 1996, changed the agency’s overall operations
                            and required a new version of PBIS. FSIS issued the PBIS 5.0 user’s manual
                            for inspectors in March 2002.

                            In addition to PBIS, FSIS uses several other information systems to produce
                            analytical sample results and establishment testing reports. PREP is designed
                            to schedule, track, and report testing information on raw and ready-to-eat
                            (RTE) products in relationship to Salmonella performance standards, E.coli
                            O157:H7 and RTE testing programs. The Office of Public and Science
                            (OPHS) generates PREP reports that are distributed through its Laboratory
                            Sample Management Reports. In addition, OPHS generates ad hoc reports
                            that are sent to the Technical Service Center for distribution. DEWS (which
                            the agency removed from service following the end of our fieldwork) was
                            designed to alert Headquarters and district managers of changes in
                            establishments that might need further investigation. The system’s purpose
                            was to retrieve pertinent information from the PBIS and PREP systems, and
                            then issue an e-mail alert to Headquarters and district managers.

                            The TSC opened in May 1997 to provide technical assistance and guidance to
                            FSIS inspection employees. The TSC generates a series of monthly exception
                            reports using PBIS data, which show establishments’ compliance with
                            Federal meat and poultry regulations.

                            OIG recently completed an audit (Audit No. 24601-2-KC,1 issued September
                            2003) that assessed FSIS’ actions in response to the large ConAgra recall.
                            This audit, as well an audit by the Government Accountability Office (GAO-
1 1
  Audit Report No. 24601-2-KC, “Food Safety and Inspection Service Oversight of Production Process and Recall at
ConAgra Plant,” dated September 2003


USDA/OIG-A/24601-0003-Ch                                                                                     Page 1
                     02-902, issued August 2002), highlighted the need for FSIS to improve its
                     management controls over the inspection process. FSIS agreed to strengthen
                     its policies and controls, citing its IT systems as key elements in addressing
                     the audit recommendations.

Objectives           The objectives of this audit were to identify the information systems FSIS
                     uses in conducting its domestic inspection programs at meat, poultry and egg
                     establishments, and to evaluate (1) the effectiveness of the agency’s policies,
                     procedures, and instructions for utilizing the systems, and (2) the adequacy of
                     the systems as designed to perform their assigned tasks, particularly in
                     identifying problems at inspected establishments. We also assessed the
                     applicable controls and procedures in relation to FSIS’ responses to the GAO
                     and OIG audits.




USDA/OIG-A/24601-0003-Ch                                                                    Page 2
Findings and Recommendations
Section 1. Management Control Process



Finding 1            FSIS Needs To Establish A Management Control Process For
                     Effective Coordination Between Headquarters And Field Units

                     In its report on the ConAgra recall, OIG recommended that FSIS establish a
                     management control process to provide FSIS inspectors with all available
                     data necessary to perform their monitoring functions at meat and poultry
                     establishments. Although FSIS agreed with OIG’s recommendation, we
                     found that the agency had not established the controls or oversight essential
                     for a truly effective management control process. As a result, even with the
                     aid of the IT systems cited in its response to the ConAgra audit, FSIS may
                     not always be able to identify significant noncompliance trends at inspected
                     establishments before they escalate into situations that could threaten public
                     health and safety.

                     In its initial and followup responses to the ConAgra report, FSIS named
                     several groups that would play a role in accumulating and analyzing
                     compliance data: inspection personnel, front-line supervisors and district
                     officials, the TSC, and Headquarters officials. FSIS also assigned its OPEER
                     to monitor the management control process, specifically the agency’s IPPS.
                     However, FSIS has not developed a set of written procedures to specify each
                     group’s responsibilities for data collection, analysis, and monitoring. FSIS
                     also needs to develop procedures to ensure regular communication and
                     coordination between these groups to ensure the most effective use of the
                     agency’s IT systems. In discussions held in December 2003, an agency
                     official generally agreed with the need for a system of controls but could not
                     provide any specific plans or timeframes for implementation.

                     FSIS Needs To Improve Coordination Between Headquarters, the TSC,
                     and the Districts

                     Although the TSC was preparing a series of monthly exception reports based
                     on PBIS data at the time of our review, it was providing the reports to FSIS
                     Headquarters only, without distributing them to the district offices. FSIS
                     Headquarters had not issued written instructions to the TSC regarding its
                     responsibilities for report distribution, nor had it established a process to
                     review the exception reports and offer feedback to either the TSC or the
                     district offices directly affected by the reports. Without an effective process


USDA/OIG-A/24601-0003-Ch                                                                    Page 3
                     for sharing and reviewing important food safety data, FSIS may not detect
                     and avoid problems such as those that resulted in the ConAgra recall.

                     In its response to OIG’s ConAgra report, FSIS wrote that it had “judiciously
                     implemented this process [the TSC’s distribution of reports to Headquarters
                     and the districts] to make decision-support information available to the
                     inspection personnel.”

                           Reports Not Distributed to Key Personnel

                     In its response to OIG’s ConAgra report, FSIS officials stated, “the Technical
                     Service Center collects and analyzes…data from a number of sources,
                     including PBIS. They provide reports to senior officials in Headquarters and
                     at the district level. The reports include non-compliance summaries, sample
                     results, trend analyses, and various operational data summaries.”

                     We found that the TSC, as directed by FSIS Headquarters, produces a series
                     of eight monthly reports based on PBIS data. Unlike the standard PBIS
                     reports generated in the districts, these are “exception reports,” intended to
                     identify areas that may require immediate attention or followup action by
                     FSIS managers. For instance, one of the reports lists the 5 establishments in
                     each district with the highest percentages of noncompliances, while a similar
                     report identifies the 50 establishments with the highest noncompliance
                     percentages nationwide. Another example is the “Zero-Noncompliance”
                     report, which identifies establishments for which FSIS has issued no
                     noncompliance reports (NRs) during the past three months.

                     Although district and field personnel could have benefited from some of the
                     exception reports, the TSC had been distributing them only to FSIS
                     Headquarters at the time of our audit. Managers at the two district offices we
                     visited had not received the TSC exception reports, and prior to our visits one
                     was unaware they existed. One district office, in fact, had used a time-
                     consuming manual process to prepare its own equivalent to the Zero-
                     Noncompliance report because district officials believed it could indicate
                     problems at operating meat and poultry establishments. As noted in
                     Finding 3, district office personnel could have produced the report more
                     quickly and efficiently if they had greater familiarity with the ProClarity
                     data-mining software. However, in this instance, it should not have been
                     necessary for the district office to produce its own version of a report that
                     was already being prepared monthly by the TSC.

                     We interviewed four of the Headquarters officials who received the TSC
                     reports every month. One of these officials stated that the reports were not
                     used; the remaining three stated that they reviewed the reports every month

USDA/OIG-A/24601-0003-Ch                                                                    Page 4
                     and provided feedback as needed to the district offices.         However, the
                     officials did not maintain documentation of that feedback.

                     No formal procedures existed to require the TSC to share reports with the
                     districts, or Headquarters officials to document their communications with
                     the districts regarding potential problems presented in the reports.
                     Consequently, the district officials who could have most directly benefited
                     from the reports did not even know of their existence, and thus could not take
                     action to follow up on any information they contained regarding
                     establishments in their districts.

                     FSIS officials noted that, following our visits to the districts, the TSC had
                     been instructed to include the district offices in its distribution of the eight
                     exception reports.

                           Additional Analysis Needed

                     As noted above, FSIS’ response to the ConAgra report stated that the TSC
                     was “analyzing” data obtained from PBIS. However, we found that while the
                     TSC was using PBIS data to produce monthly exception reports, TSC
                     personnel did not routinely perform their own analysis of the information
                     except to collate and summarize the reports. TSC officials stated that
                     Headquarters had not offered them feedback on how they could improve the
                     monthly reports or make them more beneficial to users in Headquarters and
                     in the field. According to the TSC officials, they did provide such services to
                     the districts when requested, but this was not a frequent occurrence.

                     In our own reviews of the TSC exception reports, we noted instances where
                     the reports could have been enhanced for greater effectiveness. For example,
                     we noted that the TSC’s Zero-Noncompliance report included all inspected
                     establishments in a particular district that had received no NR’s in the last
                     3 months. However, in discussions with district office personnel, we found
                     that while it was considered unusual for a slaughtering or processing
                     establishment to meet this criterion, it was not unusual for an inspected
                     warehouse. In reviewing some of the Zero-Noncompliance reports with
                     district personnel, we found that a significant portion of the listed
                     establishments were in fact warehouses. District personnel or front-line
                     supervisors would thus need to manually review the report to identify
                     establishments that required followup. This process could be eliminated if
                     the TSC produced a version of the report that excluded warehouses, an idea
                     that might have been brought to the attention of TSC officials through regular
                     analysis and feedback.



USDA/OIG-A/24601-0003-Ch                                                                     Page 5
                     While FSIS has the resources to form the basis of a working management
                     control process, the agency needs to ensure that all units are communicating
                     information to one another as needed and coordinating their actions to
                     achieve the maximum benefit. To do this, the agency needs to develop
                     written procedures that specify the roles and responsibilities of each level.

                           Role Of OPEER Needs To Be Enhanced

                     Although FSIS officials stated that they had designated OPEER to monitor
                     the agency’s progress in developing a management control system, little
                     oversight has been exercised to date. We attributed this to the fact that FSIS
                     has not developed written procedures defining exactly what the proposed
                     management control system will entail, or the process by which it will be
                     implemented. Until FSIS addresses these challenges, OPEER cannot
                     adequately fulfill its monitoring responsibilities. Although OPEER will be
                     reviewing IPPS in 2004, this is only one aspect of the overall system that
                     FSIS needs to develop and which OPEER would need to monitor.

                     OPEER’s mission is to enhance FSIS’ evaluation, review, assessment,
                     investigation, enforcement, and audit capacity in order to improve
                     management effectiveness, efficiency, and decision-making. OPEER has
                     five units, four located at FSIS Headquarters and the other co-located with
                     the TSC in Omaha, Nebraska. In the agency’s initial response to OIG’s
                     ConAgra report, FSIS officials stated that OPEER had been assigned to
                     monitor the agency’s progress in developing a management control process
                     through audits, evaluations, and reviews.

                     However, FSIS has not developed written procedures to define the
                     recommended management control process or timeframes for implementing
                     it. As a result, we question the effectiveness of any evaluations or reviews
                     OPEER might conduct at this point. We interviewed OPEER officials both at
                     Headquarters and at the Omaha office to determine what assignments FSIS
                     management had given to them. We found that the OPEER’s Headquarters
                     office has been assigned to complete a review of the IPPS guidelines by the
                     end of FY 2004, while the Omaha office has been assigned the task of
                     performing State-equivalency reviews.

                     The IPPS guidelines, which FSIS described in its response to the ConAgra
                     report as “integral to the Agency’s management control system in the field,”
                     were designed for front-line supervisors to follow in overseeing and
                     evaluating the job performance of FSIS establishment inspectors. However,
                     the IPPS guidelines do not describe any management control process above
                     the front-line supervisor level. They do not address the problems of
                     communication and coordination between the various operating units as

USDA/OIG-A/24601-0003-Ch                                                                   Page 6
                     described in Finding 1, nor do they contain guidelines for higher management
                     levels to ensure that FSIS’ inspection programs are working effectively.

                     As discussed with FSIS officials in December 2003, the IPPS guidelines by
                     themselves do not constitute the management control process that previous
                     OIG and GAO audits have strongly indicated a need for, and an OPEER
                     review of these guidelines in 2004 would therefore address only one aspect of
                     what is needed overall. One FSIS official agreed with this, while another
                     explained that their written response pertained solely to the circumstances
                     surrounding the ConAgra recall rather than to FSIS operations nationwide.

                     FSIS officials noted at the exit conference that the statements they made in
                     response to the ConAgra report applied to that audit alone, and questioned
                     their relevance to this audit. The comments OIG has made in this report as
                     they relate to our prior audit of ConAgra are relevant to the issues being
                     reported herein because FSIS has represented the PBIS and other systems, as
                     well as monitoring by OPEER, as critical elements of its management
                     controls over field inspection operations. This audit has disclosed that these
                     functions, as represented by FSIS, have not been adequately established,
                     documented, or effectively implemented.

                     In order for OPEER to perform a meaningful oversight role, FSIS must first
                     develop written procedures and timeframes for developing a comprehensive
                     management control process as described in Finding 1. FSIS will then need
                     to expand OPEER’s oversight role to include monitoring of all aspects of the
                     new system’s implementation, which may entail reviews at Headquarters, the
                     districts, the TSC, and inspected meat and poultry establishments.

Recommendation No. 1

                     Develop a comprehensive management control system that defines the
                     responsibilities of each management and operating level associated with meat
                     and poultry establishment inspections, including procedures for regular
                     communication and coordination between units.

                     Agency Response.

                     FSIS officials agreed with the need for enhancing management controls in
                     certain areas, and for better defining their program of oversight. They stated
                     that they would establish a management control accountability model that
                     will produce clear performance standards and measures for both individual
                     and organizational performance. Once these standards are developed, the
                     agency will define the key functions to be addressed by each district office,
                     and describe how each function is to be verified. After establishing key

USDA/OIG-A/24601-0003-Ch                                                                   Page 7
                     functions, FSIS will document the details for monitoring and measuring the
                     function, implement the model for organizational performance, and evaluate
                     the model to determine if it is functioning as intended. Work is underway to
                     define the key functions, and agency officials expect to complete the design
                     of the accountability model by April 2005. The target date for full
                     implementation of the Field Operations management control system is fiscal
                     year 2006.

                      In addition, the agency will revise FSIS Directive 1090.1, revision 2,
                     Management Controls, to include detailed instructions for FSIS programs to
                     apply a more rigorous and comprehensive management control system that
                     will encompass administrative controls to ensure operational efficiency and
                     adherence to managerial policies and applicable laws. The revised directive
                     will incorporate GAO’s Standards for Internal Control in the Federal
                     Government and the Internal Control Management and Evaluation Tool, and
                     will provide explicit instructions for use by program managers. The revised
                     directive will be issued by April 2005.

                     OIG Position.

                     We concur with the agency’s plan of action. However, before management
                     decision can be reached, we need to review the draft procedures. We remain
                     available to work with FSIS during the development of the agreed-upon
                     processes.

Recommendation No. 2

                     Include provisions in the management control system for the TSC to perform
                     independent analyses of inspection and establishment data collected through
                     the IT systems, and to provide the results of its analyses and exception
                     reports as appropriate to Headquarters and the field.




USDA/OIG-A/24601-0003-Ch                                                                  Page 8
                     Agency Response.

                     FSIS officials stated that the comprehensive management control system will
                     pay close attention to the key components for information, communications,
                     and monitoring in order to strengthen communications and foster continuous
                     improvement. They stated that the agency will include provisions for formal
                     reporting of analysis to Headquarters, the TSC, and district offices. The
                     management control system will also provide timely feedback to program
                     managers. FSIS officials expect to implement the management control
                     system in fiscal year 2006.

                     OIG Position.

                     We agree with the agency’s plan of action. However, before management
                     decision can be reached, we need to review the draft procedures related to the
                     role of the TSC.




USDA/OIG-A/24601-0003-Ch                                                                   Page 9
Section 2. Guidance and Training



Finding 2            FSIS Needs To Improve Guidance and Training of Field
                     Personnel

                     Although the agency’s IPPS guidelines state that both establishment
                     inspectors and front-line supervisors should be performing trend analyses
                     using data available through PBIS 5.0, the guidelines do not indicate how this
                     should be accomplished. In addition, the front-line supervisors and district
                     officials we interviewed generally did not consider themselves proficient in
                     using FSIS’ data-mining software. These problems existed because FSIS had
                     provided inspectors and supervisors with little guidance for interpreting
                     PBIS data and insufficient training for using the ProClarity data-mining
                     software. As a result, FSIS personnel may not be able to recognize problems
                     at meat and poultry establishments and take appropriate action that could
                     prevent a product recall or other serious health and safety problems.

                     In response to OIG’s ConAgra report, FSIS officials stated that their
                     inspectors “have real-time access to all available inspection data generated
                     for the respective establishment that they are working on. This data is in the
                     PBIS database. Inspection personnel use this data and other sources in their
                     verification activities.” The response further stated that FSIS personnel
                     “…have regular access to the PBIS database and related reports.”

                     In addition to scheduling tasks for inspectors to perform at meat and poultry
                     establishments, the PBIS 5.0 system collects significant quantities of
                     inspection data and organizes the results into a series of five “standard
                     reports.” These reports document information such as the numbers of
                     scheduled inspection tasks (including how many were performed and not
                     performed), unscheduled tasks, acceptable results, and noncompliances.
                     FSIS inspectors are trained to enter specific information into PBIS and to
                     produce the five standard reports. Depending on the user’s level of
                     authorization, these reports can cover operations at an individual
                     establishment, or at the circuit, district, and national levels.

                     The inspectors and front-line supervisors we interviewed routinely printed
                     out the standard reports and used them, as one inspector told us, to “keep
                     track of establishments’ performance.” However, the agency had not
                     developed guidance for interpreting the reports or numerical ranges to help
                     inspectors and supervisors identify potential problems. For example, FSIS
                     personnel could use additional guidance when reviewing the PBIS “Trend
                     Indicator Summary,” which presents data on a variety of inspection activities

USDA/OIG-A/24601-0003-Ch                                                                  Page 10
                     for a particular establishment or establishments over a given period of time.
                     Specifically, the report shows numbers and percentages of noncompliances
                     issued by the inspector for sanitation and HACCP activities and sorts them
                     into general noncompliance trend indicator categories such as Monitoring,
                     Recordkeeping, Implementation, and Verification. According to FSIS, the
                     report “allows inspection personnel to easily monitor plant trends.”

                     However, we found that the Trend Indicator Summary could be both complex
                     and time-consuming to interpret and use. For instance, while the report lists
                     the number of NR’s issued under each category, it is not an “exception
                     report” and thus does not automatically guide an inspector or front-line
                     supervisor to areas where the number or type of NRs would indicate a
                     particular problem. For instance, in one district-level Trend Indicator
                     Summary we reviewed, the percent of scheduled inspection tasks not
                     performed by the inspectors varied from 1.2 percent at one establishment to
                     20.9 percent at another establishment. On the same report, the number of
                     inspection procedures for which the inspectors had failed to report any
                     feedback totaled 58 at one establishment and 212 at another establishment.
                     Without prescribed ranges to indicate acceptable and unacceptable values or
                     percentages for a given inspection category, FSIS personnel must rely on
                     their judgment to interpret the reports and determine areas that may require
                     additional monitoring or other followup action.

                     In most cases, FSIS field personnel were provided with only the PBIS user’s
                     manual and basic training on using the system. This training concentrated on
                     how to input information correctly into the system, and the inspectors we
                     interviewed told us they were comfortable with their level of knowledge in
                     this regard. However, both inspectors and supervisors stated that they had to
                     rely on their own judgment to assess and act on information in the Trend
                     Indicator Summary and the other standard reports. One inspector told us that
                     he had developed his own guidelines for interpreting such data over the
                     course of his career. Other inspectors’ criteria for interpreting the reports
                     could be very different. One supervisor told us that, although he had looked
                     at Trend Indicator Summaries, he was “unable to get much out of the report.”

                     While FSIS personnel indicated that they knew how to work with the
                     PBIS 5.0 standard reports to a certain extent, three of the four front-line
                     supervisors we interviewed stated that they did not know how to use
                     ProClarity, FSIS’ standard data-mining tool for narrowing down and
                     analyzing the vast amount of information stored in PBIS. Provided to both
                     front-line supervisors and district-level staff, ProClarity allows users to
                     produce summary reports and charts designed to help them identify trends
                     and problems in individual establishments or circuits.


USDA/OIG-A/24601-0003-Ch                                                                 Page 11
                     In response to a GAO audit in August 2002, FSIS stated that it would train
                     district staff and front-line supervisors to use ProClarity by October 7, 2002.
                     We found that although FSIS had demonstrated the software’s capabilities
                     and provided supervisors with user’s manuals, the agency had not provided
                     any hands-on training or training that specifically related ProClarity to FSIS’
                     inspection environment.

                     During our visits to the district offices, most supervisors said they were only
                     minimally competent with ProClarity because they had not received
                     sufficient training. Specifically, the supervisors told us: (1) very few people
                     at the districts knew how to use the software; (2) personnel could not relate
                     the demonstration or the manual to FSIS procedures; (3) the manual was
                     confusing; and (4) they did not have time to learn ProClarity on their own. As
                     a result, one district office we visited used a time-consuming manual process
                     to produce a report that it could have generated quickly and easily with
                     ProClarity.

                     According to an FSIS Headquarters official, field and district office personnel
                     have the tools they need to perform their duties. He said that personnel know
                     how to use the PBIS reports without Headquarters “micro-managing” them.
                     Given the diverse types of operations being inspected, the official also
                     expressed concern at using a “cookie-cutter” approach to guide personnel in
                     interpreting the reports. FSIS officials further stated that since the
                     implementation of the HACCP-based inspection system, the agency’s
                     frontline inspectors need to be “critical thinkers” and they questioned the
                     usefulness of providing guidelines and parameters for interpreting the system
                     reports since inspectors should be capable of using their own judgment in
                     making such interpretations.

                     Our review disclosed, however, that inspectors and supervisors armed only
                     with user’s manuals, basic technical training, and the IPPS guidelines are not
                     equipped to make the most effective use of the PBIS systems. While we
                     concur with the officials’ position that inspectors need to be capable of using
                     independent judgment, this does not preclude the agency from providing
                     additional guidance to assist them in performing data mining and trend
                     analyses. The provision of such training would further be consistent with the
                     assurances provided by FSIS officials in their responses to previous audit
                     reports.

                     To effectively and consistently analyze the PBIS system, FSIS field
                     personnel need guidance for interpreting the PBIS standard reports and
                     hands-on training for using the ProClarity data-mining software. Until it
                     provides such guidance and training, FSIS has only limited assurance that


USDA/OIG-A/24601-0003-Ch                                                                   Page 12
                     field personnel are satisfactorily carrying out the measures cited in its
                     response to the ConAgra report.

Recommendation No. 3

                     Develop written guidelines for FSIS inspectors and supervisors to use in
                     analyzing and interpreting PBIS data and provide them to district offices,
                     front-line supervisors, and inspectors.

                     Agency Response.

                     FSIS officials stated that to aid field inspection personnel in analyzing PBIS
                     data, the agency established District Analyst (DA) positions in all districts.
                     The DAs are responsible for analyzing data and reports generated from FSIS’
                     information systems. They will be responsible for noting trends, problem
                     plants, or emerging issues involving food safety and consumer protection.
                     Their work will include reviewing NRs, Food Safety Assessment Reports,
                     plant profile information, and various other data. They will also identify
                     findings and observations that require more in-depth technical or scientific
                     analysis to assess public health impact, and recommend appropriate action to
                     district officials. FSIS has begun to implement the DA positions within the
                     districts. Initial training on the new position responsibilities will begin in
                     November 2004, and is expected to be completed by April 2005.

                     OIG Position.

                     We agree that FSIS’ action in establishing the DA positions should provide
                     needed technical support to managers and front-line supervisors. However,
                     we also believe that additional written guidance is needed, not only for the
                     managers and supervisors, but for the DAs as well. This would assist them in
                     performing their analyses and also to provide some degree of uniformity in
                     the types of reviews that are being performed nationwide. To reach a
                     management decision on this recommendation, FSIS officials need to provide
                     us with a response that addresses this need. This could be done as part of the
                     overall process of developing a management control process.

Recommendation No. 4

                     Provide hands-on ProClarity training to district officials and front-line
                     supervisors to ensure they are able to systematically review all pertinent food
                     safety data. Work with inspectors and front-line supervisors to determine the
                     need for additional training, or changes in assignment structure.



USDA/OIG-A/24601-0003-Ch                                                                   Page 13
                     Agency Response.

                     FSIS officials stated that in addition to training provided to front-line
                     supervisors at conferences in 2002 and 2003, the Program Analysis and
                     Information Technology (PAIT) staff at the TSC had conducted ProCarity
                     training sessions at front-line supervisor meetings in multiple districts.

                     OIG Position.

                     We concur with the actions being taken by FSIS to provide training to its
                     front-line supervisors. To reach management decision, FSIS needs to provide
                     us with its timeframes for providing hands-on training to all its front-line
                     supervisors.




USDA/OIG-A/24601-0003-Ch                                                                Page 14
Section 3. IT Systems

                     Although FSIS’ principal IT systems (DEWS, PBIS, and PREP) provided
                     worthwhile or useful information to agency inspectors, supervisors, and
                     managers regarding inspection operations, we found that the systems were
                     not used in the most effective way. For example, although DEWS has
                     generated numerous alerts that may have prevented serious health and safety
                     problems, the 11 product recalls that occurred during an 18-month period at
                     the 2 districts we visited were not preceded by any alerts. We also noted a
                     loophole that could reduce the effectiveness of DEWS by allowing inspectors
                     to avoid reporting sanitation procedures that were not performed. In addition,
                     when the systems were developed, the agency had not prepared all of the
                     required system documentation such as data dictionaries and flowcharts, thus
                     limiting the ability of anyone not closely associated with the systems to
                     perform risk assessments and other analyses.



Finding 3            DEWS Needs To Be Strengthened

                     Although the DEWS system was designed to provide FSIS officials with
                     advance warning of impending problems at inspected establishments, we
                     noted that the system had often not alerted FSIS in situations that later
                     resulted in product recalls. Although this could have indicated a need to
                     review the parameters of the system’s warning “triggers,” the agency had
                     neither updated the system since its inception in April 2002, nor determined
                     if adjustments were needed. Instead, agency officials stated at the exit
                     conference that the system had been taken out of service since the conclusion
                     of our fieldwork.

                     DEWS’ purpose was to extract inspection, sampling, and enforcement data
                     from various FSIS databases and was intended to issue an “early warning”
                     when a trigger is activated—that is, when a combination of factors reached a
                     pre-determined threshold. FSIS personnel were alerted to such situations by
                     automatic e-mails that the system generates. To trigger a DEWS alert, an
                     establishment must exceed the thresholds in two or more of the following
                     areas:

                                        DEWS Factors                      Pre-Established
                                                                        Thresholds (Triggers)
                           HACCP noncompliance                                  8%
                           Sanitation noncompliance                             10%

USDA/OIG-A/24601-0003-Ch                                                                  Page 15
                           Sanitation procedures not performed                    35%
                           Failure of a pathogen sample                            1
                           Failure of Salmonella B and C set                       1
                           Issuance of enforcement action                          1

                     We attempted to evaluate the appropriateness of the thresholds shown above.
                     According to FSIS officials, the threshold percentages assigned to the
                     HACCP and sanitation triggers were arrived at using past experience as a
                     guide. For example, we questioned why the threshold for “Sanitation
                     Procedures Not Performed” was set at 35 percent. However, agency officials
                     were unable to provide any documentation of how the thresholds were
                     determined.

                     As one measure of the system’s effectiveness, we reviewed all 11 product
                     recalls for pathogen contamination that occurred between April 2002 (when
                     DEWS went into service) and October 2003. None of these recalls was
                     preceded by a DEWS alert. Agency officials stated that FSIS had not
                     performed an analysis of product recalls to determine whether PBIS or PREP
                     data from these establishments contain identifiable trends that might be found
                     to precede product recalls. Such an analysis could provide FSIS with data to
                     refine the DEWS triggers and allow FSIS inspectors to respond to problems
                     at establishments before recalls become necessary.

                     Although FSIS officials stated that they were reviewing DEWS, they stated
                     that the review was in draft; as of the time of the exit conference, no results
                     had been provided to us; officials were also unable to provide us with details
                     of the review itself, such as whether or not the trigger values were being
                     studied.

                     We noted instances in which the effectiveness of DEWS might have been
                     reduced because of conditions we noted in the PBIS system. The DEWS
                     trigger for “Sanitation Procedures Not Performed” was keyed to instances
                     where FSIS inspectors report in PBIS that they did not perform assigned
                     sanitation procedures. This trigger was designed to identify instances where
                     inspectors may not be performing a sufficient number of assigned sanitation
                     tasks at their establishments. However, a loophole in PBIS allows inspectors
                     to simply not report whether or not they performed a particular task. A large
                     number of non-responses could lower the percentage of not-performed tasks
                     below the DEWS trigger threshold. (See Finding 4 for further details on this
                     problem.)

                     In addition, because of the known association between fecal material
                     contamination and E.coli O157:H7, we believe DEWS could have benefited
                     from a trigger to key on noncompliance reports related to such contamination
USDA/OIG-A/24601-0003-Ch                                                                   Page 16
                     (or other types of noncompliance reports involving higher-risk situations).
                     However, as noted in Finding 4, PBIS does not incorporate codes that allow
                     the system to separately track noncompliance reports related to the presence
                     of fecal material contamination.

                     We also noted a specific instance in which the DEWS system could have
                     been strengthened to increase its effectiveness. Although FSIS requires its
                     personnel to follow up on DEWS alerts, the system does not track the status
                     of corrective actions resulting from previously generated DEWS alerts.
                     There is no provision for the system to generate additional alerts unless the
                     same triggers are activated by new information from the databases.

                     At one district office we found that DEWS alerts at two establishments,
                     generated on June 2, 2003, were not followed up on until the date of our visit
                     22 days later. The initial DEWS reports for both establishments were
                     triggered by the same combination of factors: (1) A district office issued an
                     enforcement action (a Notice Of Intent To Enforce, or NOIE) because the
                     establishments’ sanitation standard operating procedures and HACCP plans
                     failed to meet regulatory requirements; and (2) scheduled sanitation
                     procedures not performed exceeded the 35 percent threshold. The delay in
                     followup occurred because e-mails from the district office were not timely
                     opened by one of the front-line supervisors. This district’s policy was to
                     follow up on DEWS alerts within 3 days of issuance.

                     District officials noted that if, as in this case, the district office has already
                     issued an NOIE, a subsequent DEWS warning would not be helpful because
                     an enforcement action is already in progress at the affected establishment.
                     However, as noted above, the initiation of an enforcement action is only one
                     of several factors that can trigger a DEWS alert. The officials agreed that in
                     other circumstances a tracking feature in DEWS could be useful.

                     We were informed at the exit conference that since the completion of our
                     fieldwork, the DEWS system had been discontinued. FSIS officials stated
                     that the information provided by DEWS was available from other systems
                     through the use of the ProClarity data-mining software. However, the
                     officials we interviewed concurred with our observation that ProClarity and
                     Laboratory Electronic Application for Results Notification (LEARN, a
                     computer application that transmits laboratory results such as
                     microbiological, food chemistry, and residue analyses performed at FSIS
                     laboratories) do not generate automated alerts as DEWS was designed to do,
                     but instead are dependent on the initiative of individual users to perform the
                     necessary queries. And, as noted in Findings 1 and 2, insufficient training of
                     personnel and the lack of a documented management control process could
                     reduce the effectiveness of such a system.

USDA/OIG-A/24601-0003-Ch                                                                      Page 17
                     We believe that the concept of an early-warning system such as DEWS is a
                     valid one, and it should also be noted that the DEWS system was put forward
                     by the agency as part of its response to two different recommendations from
                     GAO’s report. Thus, we believe FSIS continues to have a need for a system
                     of this type, as well as a process to review and evaluate its effectiveness on a
                     continuous basis. This process should include analyses of product recalls to
                     determine why the system triggers were not activated. Finally, we continue
                     to believe that FSIS should explore the possibility of incorporating a tracking
                     feature into whatever system is used to replace DEWS, or take other steps to
                     ensure timely followup action when the system identifies situations that
                     require corrective action.

Recommendation No. 5

                     Develop and implement procedures to periodically review the effectiveness
                     of the agency’s new early-warning system, including analyses of product
                     recall cases that did not trigger system alerts.

                     Agency Response.

                     FSIS officials stated that DEWS was redundant in that it flagged problems
                     that had already been identified by district personnel using data from other
                     applications that was being provided on a near real-time basis. As a result,
                     FSIS has discontinued the use of DEWS. FSIS instead established the
                     District Analyst (DA) positions in each district.

                     The DAs will be responsible for managing and overseeing each district’s
                     verification sampling process, and will follow up on samples not taken,
                     discards, and potential positive results when products are shipped or to
                     confirm product holds. In the case of Salmonella sampling, the DAs will
                     monitor sample results daily and provide notification to front-line supervisors
                     on full sets, early warnings, and initiation of action on failed sets. The DAs
                     are expected to be trained and in place by April 2005.

                     In addition, FSIS officials stated that with respect to product recall cases, the
                     agency is establishing an analytical capacity within the recall management
                     function to review and analyze product recall cases to determine if product
                     sampling, epidemiological evidence, and food safety systems compliance
                     contribute to the timeline for recall.




USDA/OIG-A/24601-0003-Ch                                                                     Page 18
                     OIG Position.

                     Although we agree that the same data that was used by DEWS is also
                     available through PBIS and PREP, the absence of an automated early
                     warning system means that this data must now be reviewed by a District
                     Analyst or other FSIS employee in order for potential problems to be
                     discovered. This results in reduced assurance that problems will be detected
                     at all plants, or detected on a timely basis.

                     We believe that the concept of an early warning system was valid and needs
                     to be continued. The analytical capacity within the recall management
                     function that is being established could provide the basis for such a system.
                     To reach a management decision, FSIS officials need to provide us with
                     additional information on this system, along with information on how it will
                     relate to the management control process as a whole, and timeframes for
                     implementation.

Recommendation No. 6

                     Implement a system to track the status of unresolved system alerts to ensure
                     timely followup.

                     Agency Response.

                     Although agency officials discontinued DEWS, they agreed that it was
                     important to be able to track and follow up on districts’ enforcement actions.
                     Consequently, in fiscal year 2004, FSIS implemented the Case Management
                     Specialist (CMS) position in each district. The CMS’ responsibilities include
                     analyzing enforcement case files to ensure that the statutory and regulatory
                     basis of enforcement actions are supported by documentation. The CMS is
                     also responsible for initiating data collection or analysis needed to strengthen
                     enforcement cases, and for following up with front-line supervisors and
                     inspectors to ensure that proper administrative enforcement actions have been
                     taken, including suspensions, withdrawals seizures, and detentions of unsafe
                     or improperly labeled meat and poultry products. FSIS implemented the
                     CMS positions within the districts during fiscal year 2004.

                     OIG Position.

                     We accept FSIS’ management decision, and believe that this should
                     constitute final action as well, as soon as documentation of the establishment
                     of the CMS positions in each district has been forwarded to OCFO.



USDA/OIG-A/24601-0003-Ch                                                                    Page 19
Finding 4            PBIS Needs Additional Controls for Tracking                          High-Risk
                     Noncompliance Reports and Inspection Tasks

                     We noted several modifications that could make the system more effective.
                     Specifically, FSIS needs to develop identification codes to enable inspectors
                     to more easily track specific noncompliance records (NRs). It also needs to
                     establish tighter built-in controls over online reports of inspection tasks. FSIS
                     had not undertaken these improvements because it considers them
                     unnecessary. As a result, PBIS is not as effective as it could be in identifying
                     serious noncompliance trends and other problems at inspected
                     establishments.

                     As FSIS acknowledged in its response to OIG’s ConAgra report, the system’s
                     purpose is to facilitate the inspection process and to aid district and front-line
                     supervisors in overseeing inspection activities.

                     We found that PBIS users cannot readily identify certain types of NRs,
                     particularly fecal material contamination, in order to identify trends and
                     recurring problems. After entering inspection results into PBIS, inspectors at
                     each establishment are responsible for reviewing and linking related types of
                     NRs by common causes. Since fecal material noncompliances can result from
                     many different causes, inspectors do not always link them. And because PBIS
                     does not capture fecal material NRs in a unique inspection procedure code,
                     front-line supervisors and district managers have no way of monitoring the
                     total number of occurrences of fecal material contamination without reading
                     the entire, lengthy “NR Summary Report.” Although FSIS considers fecal
                     material contamination a zero tolerance noncompliance matter because of its
                     association with E. coli O157:H7 the agency has not taken steps to make such
                     serious NR trends easier to spot.

                     FSIS also needs to develop stricter controls over the information inspectors
                     enter into PBIS. As currently programmed, PBIS does not require inspectors
                     to account for all scheduled procedures when entering inspection results into
                     the system. When an inspector fails to report on an inspection task, PBIS
                     counts the omission as a “no feedback” response and allows the inspector to
                     continue inputting information on other tasks. This system shortcoming
                     makes it difficult for supervisors to determine if inspectors have or have not
                     performed a scheduled task, and thus casts doubt on the effectiveness of the
                     inspection process. Potentially, the “no feedback” response also reduces the
                     effectiveness of DEWS, as noted in Finding 3. Furthermore, FSIS
                     Headquarters has not given district managers any instructions on how to
                     handle “no feedback” responses. Managers at one district we visited

USDA/OIG-A/24601-0003-Ch                                                                      Page 20
                     considered the “no feedback” response unacceptable. In another district,
                     however, managers expressed little concern that as many as 15 percent of all
                     scheduled tasks at some establishments appeared in the system with “no
                     feedback.”

                     Finally, even if inspectors input that they did not complete an inspection task,
                     the most recent version of PBIS does not ask them to give the reason for
                     doing so. Without this information, district managers cannot immediately
                     determine if the reason for not performing a scheduled task was legitimate
                     (i.e., the task was not relevant to the particular establishment) or if the
                     unperformed task may leave potential problems undiscovered. FSIS
                     Headquarters officials believed that tracking the reasons was unnecessary and
                     deleted this capability when they implemented PBIS 5.0. However, district
                     personnel told us they would prefer that the system require inspectors to
                     document their reasons for not performing scheduled procedures.

                     FSIS officials expressed concerns that our report was citing the need for
                     PBIS to perform functions for which it was not designed. They stated that
                     PBIS was designed to schedule inspection tasks for inspectors, not to be a
                     management information system. They also disagreed that adding additional
                     codes would be useful, since they expected their frontline inspection
                     personnel to identify critical problems at their establishments rather than
                     depending on an IT system to do so.

                     While we agree that PBIS initial purpose is to schedule inspection procedures
                     and collect inspection results, it was agency officials themselves who
                     determined that it should also be used as a management information system,
                     as revealed by their responses to both the GAO report and OIG’s report on
                     the ConAgra recall. We also agree that establishment inspectors should be
                     aware of problems occurring at that level; however, higher level managers
                     from the circuit supervisors upward also have monitoring responsibilities,
                     which can only be achieved through the use of an automated information
                     system functioning as part of an overall management control process.

Recommendation No. 7

                     Modify PBIS 5.0 to eliminate the “no feedback” response to require
                     inspectors to report on all scheduled inspection tasks.

                     Agency Response.

                     FSIS officials stated that the agency would incorporate, in its management
                     control system, guidance covering the appropriate use and application of the


USDA/OIG-A/24601-0003-Ch                                                                    Page 21
                     “no feedback” responses in PBIS. The target date for full implementation of
                     the IPPS management control system document is FY 2006.

                     OIG Position.

                     We concur with the agency’s plan of action. However, before management
                     decision can be reached, we need to review FSIS’ draft procedures regarding
                     the handling of no-feedback responses.

Recommendation No. 8

                     Code NRs in PBIS by type so that inspectors and supervisors can more
                     readily identify the most hazardous NR’s, such as those involving fecal
                     material on product.

                     Agency Response.

                     FSIS officials stated that attempting to identify the most hazardous types of
                     NRs was impractical because of the variety of pathogens, processes, and
                     operational conditions in the various establishments. They indicated that
                     OIG’s concerns were addressed by their revision of FSIS Directive 5000.1,
                     Verifying an Establishment’s Food Safety System, which was issued on May
                     21, 2003. The revised Directive provides specific guidance to inspection
                     program personnel on how to link related NRs and how to detect or discern
                     when the establishment is proposing inadequate or ineffective preventive or
                     corrective measures.

                     OIG Position.

                     We concur that an efficient process to link NRs would largely address our
                     concerns in this regard. However, the current process as described in
                     Directive 5000.1 requires manual linking by in-plant inspection personnel or
                     front-line supervisors. This can be a time-consuming process for these
                     personnel, and we have concerns about how district managers or DAs could
                     apply management controls to such a process. To reach a management
                     decision, FSIS officials need to clarify whether there is an intent to automate
                     this process as part of the new management control process, and if so, to
                     provide us with draft procedures.




USDA/OIG-A/24601-0003-Ch                                                                   Page 22
Finding 5            PREP May Not Be Scheduling E. coli O157:H7 Testing As Often
                     As Necessary

                     At present, the PREP system is not designed to increase E.coli O157:H7
                     testing in cases where FSIS inspectors report a high incidence of problems
                     relating to fecal material contamination, even though this is a known factor in
                     the presence of E.coli O157:H7 We attributed this, in part, to the fact that the
                     PBIS and PREP systems use separate databases, and the information needed
                     for such a procedure is not contained in PREP’s database. In addition, as
                     noted in Finding 4, PBIS does not record information on NRs in a readily
                     accessible format. This problem could increase the risk of E.coli O157:H7
                     contaminated products entering commerce.

                     The purpose of PREP is to schedule, track, and report testing information on
                     E. coli O157:H7 and Salmonella in raw ground products. However, FSIS
                     policy does not require increased E. coli O157:H7 testing based on fecal
                     material NR’s.

                     PREP does not increase scheduled E. coli O157:H7 testing based on fecal
                     material NR’s because FSIS did not set up the system to do so. Currently,
                     PREP, which uses its own database, cannot draw noncompliance information
                     directly from the main corporate database. Although data is manually
                     transferred from the Corporate Sybase database into the PREP database at
                     regular intervals, information on NRs issued by FSIS inspectors at specific
                     establishments is not included. FSIS personnel indicated that the agency
                     plans to consolidate the databases used by PREP and PBIS eventually, but no
                     definite date has been slated for completing the project. Besides consolidating
                     the databases, we believe that FSIS should make provisions to specifically
                     identify fecal material NR’s in PBIS, as detailed in Finding 4, to ensure that
                     PREP increases E. coli O157:H7 testing at high-risk establishments.

Recommendation No. 9

                     Establish data exchange between PBIS and PREP and a trigger in PREP to
                     allow PREP to increase sampling based on fecal material noncompliances.

                     Agency Response.

                     FSIS officials stated that under revised Directive 10,010.1, effective May 17,
                     2004, FSIS is developing a risk-based verification program for sampling raw
                     products in Federally inspected establishments. The number of fecal NRs is
                     one of many risk factors what will be considered, but is not a factor available

USDA/OIG-A/24601-0003-Ch                                                                    Page 23
                     for most establishments that produce raw ground beef. The risk-based
                     sampling model that is developed will determine the data needed and the
                     required interaction between FSIS information systems. The new DAs will
                     monitor district sampling procedures and follow up with results, samples not
                     taken, discards, potential positives when product is shipped, presumptive
                     positives to confirm product holds or acquire shipping information, and to
                     assure overall uniform application of procedures. For E. coli 0157.H7
                     testing, the DAs will recommend to the district managers the appropriate
                     number of follow-up samples required for verifying the corrective actions
                     taken by establishments in responding to prior positive test results.

                     OIG Position.

                     Although the corrective actions proposed by FSIS are different then those
                     recommended, they could be sufficient to achieve the necessary level of
                     control. Before reaching a management decision, we need additional
                     information describing the risk-based verification program referenced in the
                     agency’s response.




USDA/OIG-A/24601-0003-Ch                                                                Page 24
Finding 6                   FSIS Has Not Developed Required System Documentation

                            Although FSIS has been using PBIS and its other IT systems for several
                            years, the agency has not developed all the required system documentation,
                            such as data dictionaries and system flowcharts, necessary to support them.
                            FSIS officials agreed that the documentation should have been prepared at
                            the time the systems were created, but limited time and resources during
                            system development prevented them from doing so. The lack of this
                            documentation could potentially limit the effectiveness and usefulness of the
                            IT systems. It also limits the ability of anyone not highly familiar with the
                            systems to perform risk assessments and other analyses to evaluate the
                            systems’ effectiveness.

                            At a minimum, USDA Departmental manuals require agencies, at the
                            beginning of a computer application’s lifecycle, to identify the information
                            needed to perform the system processes and to chart the system’s information
                            flow.2 The Departmental manuals also require agencies to build a data
                            dictionary, or a directory of current system data and reporting requirements,
                            for new computer applications.3

                            The main IT application systems - PBIS, PREP, and DEWS - used by FSIS to
                            monitor compliance at meat and poultry establishments, use three separate
                            databases. PBIS operates using a “Corporate Sybase” database, which
                            consists of approximately 1,000 data fields grouped into 128 data tables.
                            PREP operates using a separate, smaller database, which consists of
                            approximately 730 data fields grouped into 66 tables. The DEWS system, on
                            which FSIS depended for early warnings of potential health and safety
                            problems at inspected establishments, used information from both the
                            Corporate Sybase and PREP databases, plus information from the
                            enforcement database. The Corporate Sybase database provides the data that
                            the TSC uses to prepare its monthly exception reports, and which ProClarity
                            and PBIS Reader use to perform trend analyses.

                            We found that FSIS had not created flowcharts to detail the workings of its
                            various information systems, such as PBIS and DEWS, and chart their
                            relationship to each other and to the Corporate Sybase database. FSIS also
                            had not created data dictionaries for its systems to identify precisely what

2
  U.S. Department of Agriculture Departmental Manual, 3200-002, The Application System Life Cycle Management,
Chapter 1, 1.1B. (3)(d), dated March 3, 1998
3
  U.S. Department of Agriculture Departmental Manual, 3200-002, The Application System Life Cycle Management,
Chapter 1, 1.2 A. (2)(c ), dated March 3, 1998
USDA/OIG-A/24601-0003-Ch                                                                                 Page 25
                     type of information each data field contains, which we discovered when we
                     attempted to perform an analysis of the Corporate Sybase database. We had
                     planned to determine, for those establishments at which product recalls had
                     taken place, whether additional database analysis would reveal trends that
                     might allow FSIS to anticipate and correct problems before a recall would be
                     required. However, the lack of a data dictionary to document the contents of
                     the database limited our ability to perform such a review, just as it would
                     limit FSIS personnel who are not highly familiar with the system.

                     While they acknowledged that a data dictionary should have been prepared,
                     FSIS officials stated that the lack of one had never been a problem because
                     the IT staff is highly familiar with the system and did not need a data
                     dictionary to work with the database. They said they could verbally provide
                     the OIG auditors with the necessary information on each data field, but this
                     would take an excessive amount of time. Given the audit team’s inability to
                     obtain specific details on the data fields and tables in a timely manner, we
                     question if new employees joining the FSIS-IT staff could readily acquire this
                     information or ensure that the knowledge passed on to them by other
                     employees is fully accurate. The lack of system documentation could, in the
                     long term, affect the continuity of the agency’s IT operations.

                     Agency officials stated that they plan to create a data dictionary for the
                     Corporate Sybase database now that funding is available. However, they
                     estimated that this would take at least 3 months, and longer if other priorities
                     needed to be addressed. In order to ensure that all IT staff have the necessary
                     knowledge and information to perform their duties in an efficient and
                     effective manner, FSIS needs to prioritize completion of the system
                     documentation required by the Departmental manuals.




USDA/OIG-A/24601-0003-Ch                                                                    Page 26
Recommendation No. 10

                     Create the necessary system documentation, particularly system flowcharts
                     and data dictionaries, for the databases and system applications currently
                     used to monitor compliance at inspected establishments.

                     Agency Response.

                     FSIS officials stated that they would follow the Department’s standard
                     System Development Life Cycle (SDLC) process for documenting their
                     information systems. The agency will utilize a contractor to document the
                     SDLC process currently being used, and this process will be used on all
                     major system developments and modifications. The SDLC will include a
                     security study, feasibility study, requirements study, requirements definition,
                     detailed design, programming, testing, installation, and post implementation
                     review. A contact to implement the SDLC process will be awarded by
                     October 2004, and the contractor is expected to complete the design and
                     implementation of the SDLC by September 2005.

                     OIG Position.

                     We accept FSIS’ management decision. Final action can be reached when
                     the agency provides documentation that the SDLC has been implemented.




USDA/OIG-A/24601-0003-Ch                                                                   Page 27
Scope and Methodology
                     The audit fieldwork was conducted at the FSIS Headquarters in
                     Washington, D.C.; the TSC in Omaha, Nebraska; two of the 15
                     districts offices, District 45 office in Madison, Wisconsin; and
                     District 50 suboffice in Pickerington, Ohio. We also visited
                     five FSIS-inspected meat, poultry and egg establishments in
                     Wisconsin. The districts offices and the meat and poultry
                     establishments were judgmentally selected. We performed our
                     fieldwork from April through September 2003.

                     In December 2003, we began meeting FSIS Headquarters
                     officials to discuss our results. We continued to meet with them
                     up to and after the exit conference while the agency prepared its
                     response, which is attached as exhibit A.

                     At FSIS Headquarters, we interviewed the assistant
                     administrator, directors, staff members, and IT technical
                     personnel. We reviewed available documentation and created
                     flowcharts for the PBIS, PREP, and DEWS databases. We
                     evaluated the adequacy of these information systems as well as
                     the policies and procedures governing their use.

                     At the TSC we interviewed key personnel in PAIT and OPEER
                     divisions. Specifically, we inquired about the purpose of each
                     division, how it functions within the TSC, and any problems or
                     concerns regarding FSIS information systems.          We also
                     reviewed eight TSC exception reports.

                     At the District 45 office, the District 50 suboffice, and the five
                     FSIS–inspected establishments, we evaluated the effectiveness
                     of the information systems at the field level as well as the
                     districts’ and inspectors’ compliance with existing policies and
                     procedures. In addition, we reviewed the five standard PBIS
                     reports, DEWS reports, NOIE, and NOS.

                     We evaluated the agency’s internal controls for ensuring that
                     FSIS personnel at all levels are receiving the data they require
                     from the IT systems to perform their assigned inspection and
                     enforcement tasks, and that they possess the necessary training
                     and guidance to effectively and efficiently use this information.

                     The audit was conducted in accordance with Government
                     Auditing Standards issued by the Comptroller General of the
                     United States.



USDA/OIG-A/24601-0003-Ch                                                      Page 28
Exhibit A – FSIS RESPONSE TO THE DRAFT REPORT
                                          Page 1 of 8




USDA/OIG-A/24601-0003-Ch                                Page 29
Exhibit A – FSIS RESPONSE TO THE DRAFT REPORT
                                          Page 2 of 8




USDA/OIG-A/24601-0003-Ch                    Page 30
Exhibit A – FSIS RESPONSE TO THE DRAFT REPORT
                                          Page 3 of 8




USDA/OIG-A/24601-0003-Ch                    Page 31
Exhibit A – FSIS RESPONSE TO THE DRAFT REPORT
                                          Page 4 of 8




USDA/OIG-A/24601-0003-Ch                    Page 32
Exhibit A – FSIS RESPONSE TO THE DRAFT REPORT
                                          Page 5 of 8




USDA/OIG-A/24601-0003-Ch                    Page 33
Exhibit A – FSIS RESPONSE TO THE DRAFT REPORT
                                          Page 6 of 8




USDA/OIG-A/24601-0003-Ch                    Page 34
Exhibit A – FSIS RESPONSE TO THE DRAFT REPORT
                                          Page 7 of 8




USDA/OIG-A/24601-0003-Ch                    Page 35
Exhibit A – FSIS RESPONSE TO THE DRAFT REPORT
                                          Page 8 of 8




USDA/OIG-A/24601-0003-Ch                    Page 36
Informational copies of this report have been distributed to:

Administrator                                                   (20)
     Attn: Agency Liaison Officer
Government Accountability Office                                 (1)
Office of Management and Budget                                  (1)
Office of the Chief Financial Officer
     Director, Planning and Accountability Division              (1)
